No. 19-741
In the

Supreme Court of the United States
Estate of Esther Klieman, By and Through
Its Administrator, Aaron Kesner, et al.,
Petitioners,
v.
Palestinian Authority, aka Palestinian
Interim Self-Government Authority, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the
District of Columbia Circuit

SUPPLEMENTAL BRIEF

Steven R. Perles
Counsel of Record
Perles Law Firm, P.C.
1050 Connecticut Avenue, NW, Suite 500
Washington, DC 20036
(202) 955-9055
sperles@perleslaw.com
Counsel for Petitioners

295785

A
(800) 274-3321 • (800) 359-6859

1
SUPPLEMENTAL BRIEF FOR PETITIONERS
Petitioners respectfully submit this supplemental
brief pursuant to SCR 15.8 to address the passing of
the trigger date of the Promoting Security and Justice
for Victims of Terrorism Act of 2019 (PSJVTA), Pub.
L. No. 116-94, div. J, tit. IX, § 903, 133 Stat. 30823085, whereby the respondents the PA and PLO have
now consented to the jurisdiction of the U.S. court system on at least one of the applicable grounds and declared their intent to consent to jurisdiction under another.
Respondents have continued to make the so-called
martyr payments and have recently announced an intention to continue making the payments, even during
the ongoing public health crisis, which constitutes
consent to personal jurisdiction under the PSJVTA.
Now that the PSJVTA’s—passed by Congress in direct
response to the D.C. Circuit’s decision in this case and
the Second Circuit’s similar decision in Sokolow, see
165 Cong. Rec. S7182–7183 (daily ed. Dec. 19, 2019)—
April 18, 2020 trigger date has passed and respondents have repeatedly announced their intentions to
continue making these payments, it is clear that they
intend to consent to the personal jurisdiction of the
lower courts under the terms of the PSJVTA.
Because the lower courts may now find jurisdiction over the PA and PLO pursuant to the newly-enacted PSJVTA, this Court should grant the petition,

2
vacate the judgment of the court of appeals, and remand for consideration of the impact of the PSJVTA,
as the Court did earlier this Term in Clearstream
Banking S.A. v. Peterson, No. 17-1529, 2020 WL
129504 (Jan. 13, 2020) when presented with the same
circumstances.1
1. This Court should grant the petition, vacate the
judgment of the court of appeals, and remand for consideration of the impact of the PSJVTA, as a “GVR is
appropriate when [1] ‘intervening developments … reveal a reasonable probability that the decision below
rests upon a premise that the lower court would reject
1 As outlined by Petitioners in their Supplemental brief and Reply, personal jurisdiction also exists as a result of other provisions of the PSJVTA. For example, in the PSJVTA, Congress
eliminated the “benefiting from a waiver or suspension” requirement, which the D.C. Circuit found to be dispositive, and replaced it by extending the statute’s reach to any “defendant,” defined specifically to cover these respondents in this case by name.
App. 3a (amending 18 U.S.C. § 2334(e)(1), 6a (adding 18 U.S.C.
§ 2334(e)(5)). The court of appeals held that 18 U.S.C. §
2334(e)(1) did not reach respondents because they are not “benefiting from a waiver or suspension” of Section 1003 of the AntiTerrorism Act of 1987, 22 U.S.C. § 5202. Pet. App. 30a-32a. In
response, Congress amended § 2334(e)(1) to omit the “benefiting
from a waiver or suspension” requirement. See App. 3a-4a
(amending § 2334(e)(1)). Instead, the statute now applies simply
to “defendants,” defined to include these respondents by name.
App. 6a (adding § 2334(e)(5)). This ground alone should support
a GVR order.

3
if given the opportunity for further consideration, and
[2] where it appears that such a redetermination may
determine the ultimate outcome’ of the matter.”
Wellons v. Hall, 558 U.S. 220, 225 (2010) (quoting
Lawrence v. Chater, 516 U.S. 163, 167 (1996)).
The PSJVTA provided that three categories of
conduct would be deemed to constitute consent to
personal jurisdiction:
 making any payment to any individual
imprisoned for any terrorist act that injured or
killed an American, or to any relative of an
individual who died while committing such an act
(the so-called martyrs payments);
 maintaining any office or other facility in the
United States; and
 conducting any activity while physically present
in the United States.
See App. 4a-5a, PSJVTA § 903(c)(1).
2. On March 29, 2020, the PA’s Prime Minister
Mohammed Shtayyeh declared that “we will pay full
salaries this month over several days to prevent the
public from crowding in front of banks . . . [t]he third
day for prisoners and martyrs”, as announced by
WAFA, the official PA news agency. See Exhibit 1 at
App. 10a (English translation of
http://www.wafa.ps/ar_page.aspx?id=Zbdh4fa872920
250763aZbdh4f (last visited April 20, 2020)).
3. On April 16, 2020, PA President Mahmoud
Abbas declared “[t]he issue of the prisoners will

4
remain our first priority despite all the difficulties we
are facing. This is to preserve the just, inalienable
rights of our people”, as announced by WAFA. See
http://english.wafa.ps/page.aspx?id=GqpYGba115822629582a
GqpYGb (last visited April 20, 2020).
4. The issue of martyrs payments remains an inflexible issue for the PA and its leading officials have
continually announced their intentions to continue
the payments, as evidenced by the recent round of
payments in April. In these circumstances, a GVR
would conserve the Court’s resources and allow the
court below to build the proper record to determine
whether personal jurisdiction exists under the
PSJVTA.
CONCLUSION
This Court should grant the petition, vacate the
judgment, and remand for consideration in light of the
PSJVTA.
Respectfully submitted.
/s/ Steven R. Perles
Steven R. Perles (No. 326975)
Edward MacAllister (No. 494558)
PERLES LAW FIRM, PC
1050 Connecticut Ave, NW
Suite 500

5
Washington, DC 20036
Telephone: 202-955-9055
Telefax: 202-772-3101
SPERLES@PERLESLAW.COM
HEIDEMAN NUDELMAN & KALIK, P.C.
Richard D. Heideman (No. 377462)
Noel J. Nudelman (No. 449969)
Tracy Reichman Kalik (No. 462055)
1146 19th Street, N.W., Fifth Floor
Washington, DC 20036
Telephone: 202.463.1818
Telefax: 202.463.2999
Counsel for Petitioners
APRIL 2020

APPENDIX

1a
APPENDIX A - SEC. 903. PROMOTING SECURITY
AND JUSTICE FOR VICTIMS OF TERRORISM.
(a) SHORT TITLE.—This section may be cited as the
Promoting Security and Justice for Victims of Terrorism
Act of 2019.
(b) FACILITATION OF THE SETTLEMENT OF TERRORISM-RELATED CLAIMS OF NATIONALS OF THE UNITED
STATES.—
(1) COMPREHENSIVE PROCESS TO FACILITATE
THE
RESOLUTION OF ANTI-TERRORISM ACT
CLAIMS.—The Secretary of State, in consultation
with the Attorney General, shall, not later than 30
days after the date of enactment of this Act, develop
and initiate a comprehensive process for the Department of State to facilitate the resolution and settlement of covered claims.
(2) ELEMENTS OF COMPREHENSIVE PROCESS.—
The comprehensive process developed under paragraph (1) shall include, at a minimum, the following:
(A) Not later than 45 days after the date of
enactment of this Act, the Department of State
shall publish a notice in the Federal Register
identifying the method by which a national of the
United States, or a representative of a national of
the United States, who has a covered claim, may
contact the Department of State to give notice of
the covered claim.

2a
(B) Not later than 120 days after the date of
enactment of this Act, the Secretary of State, or
a designee of the Secretary, shall meet (and make
every effort to continue to meet on a regular basis
thereafter) with any national of the United
States, or a representative of a national of the
United States, who has a covered claim and has
informed the Department of State of the covered
claim using the method established pursuant to
subparagraph (A) to discuss the status of the covered claim, including the status of any settlement
discussions with the Palestinian Authority or the
Palestine Liberation Organization.
(C) Not later than 180 days after the date of
enactment of this Act, the Secretary of State, or
a designee of the Secretary, shall make every effort to meet (and make every effort to continue to
meet on a regular basis thereafter) with representatives of the Palestinian Authority and the
Palestine Liberation Organization to discuss the
covered claims identified pursuant to subparagraph (A) and potential settlement of the covered
claims.
(3) REPORT TO CONGRESS.—The Secretary of
State shall, not later than 240 days after the date of
enactment of this Act, and annually thereafter for 5
years, submit to the Committee on the Judiciary and
the Committee on Foreign Relations of the Senate

3a
and the Committee on the Judiciary and the Committee on Foreign Affairs of the House of Representatives a report describing activities that the Department of State has undertaken to comply with this
subsection, including specific updates regarding subparagraphs (B) and (C) of paragraph (2).
(4) SENSE OF CONGRESS.—It is the sense of Congress that—
(A) covered claims should be resolved in a
manner that provides just compensation to the
victims;
(B) covered claims should be resolved and
settled in favor of the victim to the fullest extent
possible and without subjecting victims to unnecessary or protracted litigation;
(C) the United States Government should
take all practicable steps to facilitate the resolution and settlement of all covered claims, including engaging directly with the victims or their
representatives and the Palestinian Authority
and the Palestine Liberation Organization; and
(D) the United States Government should
strongly urge the Palestinian Authority and the
Palestine Liberation Organization to commit to
good-faith negotiations to resolve and settle all
covered claims.

4a
(5) DEFINITION.—In this subsection, the term
“covered claim” means any pending action by, or final
judgment in favor of, a national of the United States,
or any action by a national of the United States dismissed for lack of personal jurisdiction, under section
2333 of title 18, United States Code, against the Palestinian Authority or the Palestine Liberation Organization.
(c) JURISDICTIONAL AMENDMENTS TO FACILITATE
RESOLUTION OF TERRORISM-RELATED CLAIMS OF NATIONALS OF THE UNITED STATES.
(1) IN GENERAL.—Section 2334(e) of title 18,
United States Code, is amended—
(A) by striking paragraph (1) and inserting
the following:
“(1) IN GENERAL.—Except as provided in paragraph (2), for purposes of any civil action under section 2333 of this title, a defendant shall be deemed to
have consented to personal jurisdiction in such civil
action if, regardless of the date of the occurrence of
the act of international terrorism upon which such
civil action was filed, the defendant—
“(A) after the date that is 120 days after the
date of the enactment of the Promoting Security
and Justice for Victims of Terrorism Act of 2019,
makes any payment, directly or indirectly—

5a
“(i) to any payee designated by any individual who, after being fairly tried or pleading guilty, has been imprisoned for committing any act of terrorism that injured or killed
a national of the United States, if such payment is made by reason of such imprisonment; or
“(ii) to any family member of any individual, following such individual’s death while
committing an act of terrorism that injured
or killed a national of the United States, if
such payment is made by reason of the death
of such individual; or
“(B) after 15 days after the date of enactment
of the Promoting Security and Justice for Victims
of Terrorism Act of 2019—
“(i) continues to maintain any office,
headquarters, premises, or other facilities or
establishments in the United States;
“(ii) establishes or procures any office,
headquarters, premises, or other facilities or
establishments in the United States; or
“(iii) conducts any activity while physically present in the United States on behalf
of the Palestine Liberation Organization or
the Palestinian Authority.”;

6a
(B) in paragraph (2), by adding at the end the
following: “Except with respect to payments described in paragraph (1)(A), no court may consider the receipt of any assistance by a nongovernmental organization, whether direct or
indirect, as a basis for consent to jurisdiction by a
defendant.”; and
(C) by adding at the end the following:
“(3) EXCEPTION FOR CERTAIN ACTIVITIES AND
LOCATIONS.—In determining whether a defendant
shall be deemed to have consented to personal jurisdiction under paragraph (1)(B), no court may consider—
“(A) any office, headquarters, premises, or
other facility or establishment used exclusively
for the purpose of conducting official business of
the United Nations;
“(B) any activity undertaken exclusively for
the purpose of conducting official business of the
United Nations;
“(C) any activity involving officials of the
United States that the Secretary of State determines is in the national interest of the United
States if the Secretary reports to the appropriate
congressional committees annually on the use of
the authority under this subparagraph;

7a
“(D) any activity undertaken exclusively for
the purpose of meetings with officials of the
United States or other foreign governments, or
participation in training and related activities
funded or arranged by the United States Government;
“(E) any activity related to legal representation—
“(i) for matters related to activities described in this paragraph;
“(ii) for the purpose of adjudicating or resolving claims filed in courts of the United
States; or
“(iii) to comply with this subsection; or
“(F) any personal or official activities conducted ancillary to activities listed under this paragraph.
“(4) RULE OF CONSTRUCTION.—Notwithstanding any other law (including any treaty), any office,
headquarters, premises, or other facility or establishment within the territory of the United States that is
not specifically exempted by paragraph (3)(A) shall be
considered to be in the United States for purposes of
paragraph (1)(B).
“(5) DEFINED TERM.—In this subsection, the
term ‘defendant’ means—
“(A) the Palestinian Authority;

8a
“(B) the Palestine Liberation Organization;
“(C) any organization or other entity that is a
successor to or affiliated with the Palestinian Authority or the Palestine Liberation Organization;
or
“(D) any organization or other entity that—
“(i) is identified in subparagraph (A), (B),
or (C); and
“(ii) self identifies as, holds itself out to
be, or carries out conduct in the name of, the
‘State of Palestine’ or ‘Palestine’ in connection with official business of the United Nations.”.
(2) PRIOR CONSENT NOT ABROGATED.—The
amendments made by this subsection shall not abrogate any consent deemed to have been given under
SECTION 2334(e) of title 18, United States Code, as in
effect on the day before the date of enactment of this
Act.
(d) RULES OF CONSTRUCTION; APPLICABILITY; SEVERABILITY.—
(1) RULES OF CONSTRUCTION.—
(A) IN GENERAL.—This section, and the
amendments made by this section, should be liberally construed to carry out the purposes of Congress to provide relief for victims of terrorism.

9a
(B) CASES AGAINST OTHER PERSONS.—
Nothing in this section may be construed to affect
any law or authority, as in effect on the day before
the date of enactment of this Act, relating to a
case brought under section 2333(a) of title 18,
United States Code, against a person who is not
a defendant, as defined in paragraph (5) of section
2334(e) of title 18, United States Code, as added
by subsection (c)(1) of this section.
(2) APPLICABILITY.—This section, and the
amendments made by this section, shall apply to any
case pending on or after August 30, 2016.
(3) SEVERABILITY.—If any provision of this section, an amendment made by this section, or the application of such provision or amendment to any person or circumstance is held to be unconstitutional, the
remainder of this section, the amendments made by
this section, and the application of such provisions to
any person or circumstance shall not be affected
thereby.

10a
Appendix
B
APPENDIX
B — EXHIBIT
1
Shtayyeh: We Will Adopt an Austere Emergency
Budget and the Government’s Revenues Will
Drop by More Than 50%
4. Due to disruption in the cycle of production, importation
and consumption, Mohammed Shtayyeh, Palestinian
Prime Minister, announced that the Authority’s revenues
will fall dramatically by more than 50%, whether from
local taxes, offset or other. He added “we will witness a
drop in international aid as the whole world is in a state
of crisis. Therefore, we will adopt an austere emergency
budget by reducing expenses as much as possible.
Nevertheless, we will pay full salaries this month over
several days to prevent the public from crowding in front
of banks, where:
- On the first day, the salaries of medical and backup
staff will be paid.
- The second day will be for the security personnel.
- The third day for prisoners and martyrs.
- The fourth day for the social affairs beneficiaries
and the disadvantaged.
- The fifth day for teachers.
- The sixth day for the remaining employees.

11a
Appendix B
- The last batch will be on the seventh day which will
be dedicated for officials, senior civil servants and
ministers.
I hope you spend with caution as we don’t know how things
will unfold in the coming month.”

12a
Appendix B
Day Translation
Certified Translation
CERTIFICATE OF ACCURACY
Micheline Chahine
Translator/Interpreter
Translated document:
On April 16, 2020 I created a PDF copy of an article found
at this URL: http://www.wafa.ps/ar_page.aspx?id=Zbdh
4fa872920250763aZbdh4f. I have translated two parts of
the article:
1) the bolded title which comes from page 1 and
2) sub-paragraph 4 which comes from page 4.
As a translator for Day Translations, Inc., I, Micheline
Chahine, declare that I am a bilingual translator who
is thoroughly familiar with the English and Arabic
languages. I have translated the attached document to
the best of my knowledge from Arabic into English and
the English text is an accurate and true translation of the
original document presented to the best of my knowledge
and belief.
Signed on April 19, 2020

13a
Appendix B
Micheline Chahine
Professional Translator for Day Translations, Inc.
515 S. Flower St.,18th Floor Los Angeles, CA,
90071|Toll Free: 1-800-969-6853 Fax: 1-800-856-2759

E-mail: contact@daytranslations.com | www.
daytranslations.com

